No. _ _ _ _ __
In the Supreme Court of the United States
COUNTY COMMISSIONERS OF CARROLL COUNTY, MARYLAND,
Petitioner,
v.
MARYLAND DEPARTMENT OF THE ENVIRONMENT,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of
Certiorari in the above-captioned case contains 6,316 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d).

CHRISTOPHER D. POMEROY
Counsel of Record
AquaLaw PLC
6 S. 5th Street
Richmond, Virginia 23219
(804) 716-9021
chris@aquala w.com
Counsel for Petitioner
NOVEMBER 4, 2019

